                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

      Case Number: A04010001                                                                   Page 1 of 1
  I




            We reviewed 7 1 grants selected by a random sampling procedure fiorn NSF Fiscal Year 200 1
            awards for conferences, workshops and symposia. As part of the review, we requested grant
            records from each grantee. Where the records indicated possible issues, we opened inquiries to
            resolve the issues.

            In a grant that supported student participation in a Computer Science conference', we identified
            charges of $4,700 that were not supported by documentation and appeared unrelated to the
            purpose of the grant. We opened an inquiry to resolve this issue.             -
            The grantee promptly furnished the supporting documentation, as well as correspondence
            between the Principal Investigator and NSF relating to the charges. We determined that the
            Principal Investigator requested and received NSF approval to use unexpended grant funds for
            student travel to another conference. Accordingly, this case is closed.




11'
  NSF OIG Form 2 (1 1/02)
